by Stan J. Caterbone, Pro Se PETITIONER

■l

A PETITION FOR A WRIT OF CERTIORARI
TO THE SUPREME COURT OF THE UNITED STATES

Case No. o. 20-5638

IN RE: STANLEY J. CATERBONE, et.al.,
PLAINTIFF

Third Circuit CASE NO. 19-2712
U.S. DISTRICT COURT CASE NO. 19-2052
v.

Lancaster County Prison, et.al.,
DEFENDANTS

APPLICATION For RECONSIDERATION
of ORDER Dated November 09, 2020
re
Nov 09 2020

The motion for leave to proceed in forma pauperis is denied,
and the petition for a writ of certiorari is dismissed. See Rule
39.8.

Sunday November 29, 2020

Respectfully,

0

D

Stan Jr. Caterbone, Poo Se Litigant
Advanced Media Group
www.amQqlobalentertainmentarouD.com
Linkedin Professional Networking Profile fclick here)
Twitter for THE ADVANCED MEDIA GROUP

There are 96 Total Pages Including APPENDIX A In This Application For Reconsideration
Case No. 20-5638 Application For RECONSIDERATION

Page No. 1 of 21

Sunday November 29, 2020 1:44pm

by Stan J. Caterbone, Pro Se PETITIONER

PROOF OF SERVICE
I, STAN J. CATERBONE, PRO SE PETITIONER , do swear or declare that on or about
this date, Sunday November 29th
served the enclosed MOTION. FOR I

h

as required bv Supreme Court Rule 29 I have
f

N

FOR A WRIT OP CERTIORARI On each party to the above proceeding or that party's counsel,
and on every other person required to be served, by depositing an envelope containing the
above documents in the United States mail properly addressed to each of them and with
first-class postage prepaid, or by delivery to a third-party commercial carrier for delivery
within 3 calendar days.

Attorneys for Respondents
Acting Solicitor General
United States Department of
Justice
Jeffrey B. Wall
202-514Counsel of Record 950 Pennsylvania Avenue, NW 2217
Washington, DC 20530-0001
SupremeCtBriefs@USDOJ.gov
SupremeCtBriefs@USDOJ.gov

202-514-2217

DATE Sunday November 29, 2020

Stan Cl. Caterbone, Pnb Se Litigant
ADVANCED MEDIA GROUP
1250 Fremont Street
Lancaster, PA 17603
www.amgglobalentetainmentgroup.com
stancaterbone@gmail.com

717-327-1566

Case No. 20-5638 Application For RECONSIDERATION

Page No. 2 of 21

Sunday November 29,2020 1:44pm

by Stan J. Caterbone, Pro Se PETITIONER

QUESTIONS PRESENTED
QUESTION NUMBER ONE: Is there Judicial Misconduct and Abuse of Authority
and are the courts attempting to hide the fact that there are abuses by the military and
intelligence agencies, possibly originating out of the National Security Agency, or NSA
including COITELPRO operations - and still going on today - all of which entail
numerous violations of the U.S. Constitution?
ANSWER TO QUESTION NUMBER ONE: YES. Pro Se Petitioner Stan J. Caterbone is
imploring this court to consider a RENEWING THE CHURCH COMMITTEE HEARINGS OF
THE 1970'S INTO ABUSES BY THE MILITARY/INTELLIGENCE/LAW ENFORCEMENT
COMMUNITIES.

Case No. 20-5638 Application For RECONSIDERATION

Page No. 3 of 21

Sunday November 29, 2020 1:44pm

by Stan J. Caterbone, Pro Se PETITIONER

LIST OF PARTIES
[X ] All parties appear in the caption of the case on the cover page.
[ ] All parties do not appear in the caption of the case on the cover page. A list of all
parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:
LIST OF PLAINTIFF-APPELLANTS
1. STAN J. CATERBONE
LIST OF RESPONDENTS
1.

2. Jeffrey B. Wall
Counsel of Record

3. Acting Solicitor General
United States Department of
Justice 950 Pennsylvania
Avenue, NW
Washington, DC 20530-0001

4. 202-514-2217

SupremeCtBriefs@USDOJ.gov
5.

Case No. 20-5638 Application For RECONSIDERATION

Page No. 4 of 21

Sunday November 29,2020 1:44pm

by Stan J. Caterbone, Pro Se PETITIONER

TABLE OF CONTENTS

PAGE No.

APPLICATION FOR RECONSIDERATION

1

PROOF OF SERVICE

2

QUESTIONS PRESENTED

3

LIST OF PARTIES

4

TABLE OF CONTENTS

5

BRIEF IN SUPPORT OF APPLCIATION FOR RECONSIDERATION ..

6

CONCLUSION

20

INDEX TO APPENDICES
APPENDIX A

Case No. 20-5638 Application For RECONSIDERATION

21

Page No. 5 of 21

Sunday November 29, 2020 1:44pm

by Stan J. Caterbone, Pro Se PETITIONER

BRIEF IN SUPPORT OF APPLCATION FOR RECONSIDERATION
https;//l3ncasteronline.com/news/;ocal/inm3te-3M3nc3Ster-county-prison-ciics-of-covid19/art!ele_3a7 !S77c-1ad3-I leb-b0h7-77d8d7eQ0449.html

Inmate at Lancaster County Prison dies of COVID-19
CARIER WALKER J Staff Writer
A- - -7

■ mtm « lifei

Oct 30,2020

' JlU^v

wz

I

t uv,lQ^,rvn

I

{

f5
.r
Y

The Lancaster County Prison is pictured in this file photo,
Heft7'er

An inmate of Lancaster County Prison who was hospitalized with COVID-19 has died,
prison officials said Friday.
Richard Young, 66, died Oct. 22 acute respiratory distress caused by pneumonia, which
was caused by COVID-19, according to the Lancaster County Coroner’s office.
The death is the first related to COVTD-19 at Lancaster County Prison.

Young was in Lancaster County Prison on felony burglary and other related charges.

Case No. 20-5638 Application For RECONSIDERATION

Page No. 6 of 21

Sunday November 29,20201:44pm

by Stan J. Caterbone, Pro Se PETITIONER
• Avril Haines, President-Elect Joe Biden's Choice For Director of National Intelligence
"In 2018, she spoke in favor of the nomination for Gina Haspel to be CIA director,
even as some Democrats opposed it on the grounds that Haspel had run a secret CIA
prison
where ai Qaeda detainees were tortured." by Biden picks Avril Haines as
director of national intelligence NBC November 23, 2020 https://www.nbcnews.com/politics/202Q-election/biden-picks-avril-hainesdirectornational-intelliaence-nl248626
ll.S. Navy Reserve Doctor on Gina Haspel Torture Victim: "One of the Most Severely
Traumatized Individuals I Have Ever Seen" A doctor and Naval reserve officer who
examined a high-profile prisoner tortured under Haspel's supervision urged the
Senate to oppose her nomination as CIA director. Jeremy Scahill
May 17 2018, 11:28 a.m.

Avril Danica Haines (bom August 29,1969) is an American lawyer and former government official
who served as the White House Deputy National Security Advisor in Barack Obama’s administration.
[1] She previously served as Deputy Director of the Central Intelligence Agency, the first woman to hold
this position. [2] Prior to her appointment to the CIA, she served as Deputy Counsel to the President for
National Security Affairs in the Office of White House Counsel. She replaced Tony Blinken as White
House Deputy National Security Advisor, a position she held until the end of the Obama
administration.fe] On November 23, 2020, President-elect Joe Biden announced his nomination of
Haines for Director of National Intelligence, which would make her the first woman to hold this
position.[4][5]
From 2001 until 2002, Haines was a legal officer at the Hague Conference on Private
International Lawjis] From 2002 until 2003, she served as a law clerk for United States Court of
Appeals for the Sixth Circuit Judge Danny Julian Boggs.[i6] From 2003 until 2006, Haines worked in
the Office of the Legal Adviser of the Department of State, first in the Office of Treaty Affairs and then
in the Office of Political Military Affairs.[i7] From 2007 until 2008, Haines worked for the United
States Senate Committee on Foreign Relations as Deputy Chief Counsel for the Majority Senate
Democrats (under then-chairman Joe Biden).[i8] She then worked for the State Department as the
assistant legal adviser for treaty affairs from 2008 to 2010.[19]
In 2010, Haines was appointed to serve in the office of the White House Counsel as Deputy Assistant
to the President and Deputy Counsel to the President for National Security Affairs at the White House.
[20] On April 18, 2013, Obama nominated Haines to serve as Legal Adviser of the Department of State,
to fill the position vacated after Harold Hongju Koh resigned to return to teaching at Yale Law School.
[21] However, on June 13, 2013, Obama withdrew Haines' nomination to be Legal Adviser of the
Department of State, choosing instead to select her as Deputy Director of the Central Intelligence
Agency.[22] Haines was nominated to replace Michael Morell, the CIA's deputy and former acting
director. The office of the deputy director is not subject to Senate confirmation, with Haines
subsequently taking office on August 9, 2013, the final day of Morrell's tenure. [23] Haines was the first
woman to ever hold the office of the deputy director, while Gina Haspel was the first female career
intelligence officer to be named Director.[24][25][26][27][28][29][3o][3i] In 2015 Haines was
tasked with determining whether CIA personnel involved in the hacking of the
computers of Senate staffers who were authoring the Senate Intelligence Committee
report on CIA torture would be disciplined. Haines chose not to discipline them,
overruling the CIA Inspector General. [32] Subsequently, she was involved in the CIA
project of redacting the Senate report[33l for release. She was also the first female
Deputy National Security Advisor (DNSA).

Case No. 20-5638 Application For RECONSIDERATION

Page No. 7 of 21

Sunday November 29,2020 1:44pm

by Stan J. Caterbone, Pro Se PETITIONER

During her years in Obama White House, Haines played a significant role working closely with John
Brennan in determining administration policy on "targeted killings" by drones. [34] The ACLU strongly
criticized the Obama policy on drone killings as failing to meet international human rights norms. [35]
During the Democratic National Committee email leak during the 2016 presidential campaign, Haines
as DNSA convened a series of meetings to discuss ways to respond to the hacking and
leaks.[36]
Today Stan J. Caterbone is, as we speak, is being subject to an unprecedented level of
attacks that supersede any of the previous years of victimization by COINTELPRO and
U.S. Sponsored Mind Control operations. He is now PERMANENTLY CRIPPLED from the
ELECTROMAGNETIC OR MICROWAVE WEAPONS, is under 15 fifteen years of probation
from false allegations and a series of false arrests, his home and automobile are
constantly vandalized on a daily basis, all of his electronics, including his computers
are constantly hacked, and he is constantly Gang Stalked and Harassed everywhere he
goes.
The COINTELPRO operation reached a pinnacle when he was arrested on January 16, 2019 for
allegedly banging on the interior wall of his home, and spent the next 9 nine months if the
Lancaster County Prison, until October 3, 2019 for a probation violation, from a previous false
arrest. The Lancaster County District Attorney's Office and and Lancaster City Police
Department turned his being stalked and harassed by neighbors around and instead arrested
him back on November 25, 2017. While in the Lancaster County Prison, the programs continued,
and left him in a wheel chair the last few weeks. These programs and their operations are
identical to what his father, Samuel P. Caterbone experienced in Lancaster back in the 1960's
and 1970's, identical in all respects, and both carried out by the Lancaster City Police
Department. Stan J. Caterbone has been victim to 4 four FALSE IMPRISONMENTS, and everyone
is when there was a REPUBLICAN President in the White House; 1987, 2006, 2017, and 2019. It
should be known that at this very time of imprisonment, there were several other Whistle­
blowers in prison, including Julian Assange, of Wikileaks, and Chelsea Manning of the U.S.
Army.
One of the most perverted aspects is the litigation in federal and state courts that is constantly
being obstructed. Some 8 cases in the U.S. Supreme Court, cases in the Second, Third, Seventh,
Ninth, and Eleventh Circuit Courts, and tens of cases in the Third and U.S. District Court for
Eastern Pennsylvania, along with the Pennsylvania Supreme Court and Superior Court of
Pennsylvania, along with the Lancaster County Court of Common Pleas. All of this litigation is
buttressed by a valuation of some $650 Million Dollars in claims since 1987. The level of
misconduct by judges, clerks, and prosecutors in the courts is oblivious to the fact that there
are several LANDMARK cases that should have been settled years ago.
Today the Lancaster County District Attorney is Mr. Craig Stedman, who is a former Military
Intelligence Officer, formerly trained at the United States Department of Defense Headquarters,
the PENTAGON. He coincidently or not arrived in the year 1991, the year that International
Signal & Control, Pic., or ISC was formally indicted as the largest fraud in U.S. History. Also,
coincidently or not, the U.S. Attorney General at the time was none other than William Barr, who
is currently the U.S. Attorney General. In addition, William Barr served in the Central Intelligence
Agency from 1973 to 1976. Even more disturbing is the fact that on January 16, 2019 at
precisely 2:41am Stan J. Caterbone filed, electronically, a Praecipe to ADD WILLIAM BARR as a
Defendant in Case No. CI-08-13373 in the Lancaster County Court of Common Pleas. Some 14
hours later, Stan J. Caterbone was falsely arrested and falsely imprisoned for some 9 months.
There is a direct legal nexus from Lancaster County to the National Security Agency, or NSA, the
Central Intelligence Agency, or CIA, Navy Intelligence, the Defense Intelligence Agency, or DIA,
and the White House.

Case No. 20-5638 Application For RECONSIDERATION

Page No. 8 of 21

Sunday November 29, 2020 1:44pm

by Stan J. Caterbone, Pro Se PETITIONER
This legal nexus is will documented and sourced in the book by Alan Friedman titled “THE
SECRET HISTORY OF HOW THE WHITE HOUSE ILLEGALLY ARMED IRAQ -

Case No. 20*5638 Application For RECONSIDERATION

Page No. 9 of 21

Sunday November 29,2020 1:44pm

by Stan J. Caterbone, Pro Se PETITIONER

BACKGROUND OF PETITIONER STAN J. CATERBONE
PRO SE PETITIONER STAN J. CATERBONE is a private citizen and the majority shareholder
of the United States incorporated business Advanced Media Group, Ltd., PRO SE PETITIONER
STAN J. CATERBONE was a whistle-blower and shareholder in 1987 involving the United States
Defense Contractor International Signal & Control, Pic., known as ISC. In 1992, International
Signal & Control was indicted and found guilty of among other things a Billion Dollar Fraud and
export violations concerning illegally shipping cluster bomb technologies, missile defense
systems, and other defense systems to foreign interests including South Africa, Iraq and
Saddam Hussein. Cluster bombs and related technologies are known to have been exported to
Iraq by the Chilean Arms Dealer Carlos Cardoen, a joint venture partner of International Signal
& Control. The Central Intelligence Agency is confirmed to have been involved in a covert
program to arm Iraq during the 1980's with close ties to International Signal & Control, which
allegedly included the help of the National Security Agency, a former end user of International
Signal & Control technologies under the early 1980's program Project X. A Presidential Finding
in 1984 by the Bush Administration was executed to implement the program of arming Saddam
Hussein and Iraq with the cluster bomb technologies. Serious allegations of these programs
were the focus of investigations that included the knowledge and supervision of then appointed
nominee for the Director of Central Intelligence Agency, Robert M. Gates.
Since 1987, PRO SE PETITIONER STAN 3. CATERBONE has been the victim of vast civil
conspiracy that started in 1987 to cover-up allegations of fraud within International Signal &
Control during the negotiations and merger of International Signal & Control and Ferranti
International of England. Stanley 3. Caterbone alleges that warrantless surveillance was used to
obstruct justice and moot his constitutional rights in an effort to divert attention away from his
allegations of fraud within International Signal & Control back in 1987, and afterwards to the
present as a means to deny his access to the courts for remedy and relief, and Federal False
Claims Act violations. The business of Advanced Media Group has been greatly compromised
and intellectual property stolen during the late 1980's and early 1990's that included
information technology contracts with the United States Government.
Organized stalking and harassment began in 1987 following the public allegations of
fraud within ISC. This organized stalking and harassment was enough to drive an ordinary
person to suicide. As far back as the late 1980's PRO SE PETITIONER STAN 3. CATERBONE knew
that his mind was being read, or "remotely viewed". This was verified and confirmed when
information only known to him, and never written, spoken, or typed, was repeated by others.
In 1998, while soliciting the counsel of Philadelphia attorney Christina Rainville, (Rainville
represented Lisa Michelle Lambert in the Laurie Show murder case), someone introduced the
term remote viewing through an email. That was the last time it was an issue until 2005. The
term was researched, but that was the extent of the topic. Remote Viewers may have
attempted to connect in a more direct and continuous way without success.
In 2005 the U.S. SPONSORED MIND CONTROL turned into an all-out assault of mental
telepathy; synthetic telepathy; and pain and torture through the use of directed energy devices
and weapons that usually fire a low frequency electromagnetic energy at the targeted victim.
This assault was no coincidence in that it began simultaneously with the filing of the federal
action in U.S. District Court, or CATERBONE v. Lancaster County Prison, et. al., or 05-cv-2288.
This assault began after the handlers remotely trained Stan J. Caterbone with mental telepathy.
The main difference opposed to most other victims of this technology is that Stan J. Caterbone
after being connected to some 20 or so individuals ranging from CIA Operatives to current day
national newscasters and celebrities, Stan J. Caterbone remains connected 24/7 with a person
who declares that she is Interscope recording artist Sheryl Crow of Kennett Missouri. Stan 3.
Caterbone has spent 3 years trying to validate and confirm this person without success. Most
U.S. intelligence agencies refuse to cooperate, and the Federal Bureau of Investigation and the
U.S. Attorney's Office refuse to comment. See attached documents for more information.
In 2006 or the beginning of 2007 PRO SE PETITIONER STAN J. CATERBONE began his
extensive research into mental telepathy; mind control technologies; remote viewing; and the
CIA mind control program labeled MK ULTRA and it's subprograms.
Case No. 20-5638 Application For RECONSIDERATION

Page No. 10 of 21

Sunday November 29,2020 1:44pm

by Stan J. Caterbone, Pro Se PETITIONER
In January of 2006, PRO SE PETITIONER STAN J. CATERBONE was detained at every airport
security check point, which was during a policy of random checks, and taken out of line during
travel from Philadelphia, Pennsylvania, to Houston, Texas, and on to Puerto Vallarta, Mexico. At
the Houston Airport, Stanley J. Caterbone was falsely accused of carrying plastics explosives
and taken to an interview room by Homeland Security officials. Stanley J. Caterbone was also
detained for three days in Mexico, and was not provided with an opportunity to gain access to a
flight out of the country by Mexican Officials.
Today, PRO SE petitioner STAN J. caterbone is a pro se litigant in several state and local
courts, in an effort to be restored to whole since the WHISTLEBLOWING of 1987. Most notable
is CATERBONE v. The National Security Agency, NSA, et. al. In the UNITED STATES COURT OF
APPEALS FOR THE THIRD CIRCUIT CASE NO. 17-1904.
That case is a PRELIMINARY
INJUNCTION FOR EMERGENCY RELIEF FILED TO IMMEDIATELY HALT THE OBSTRUCTION OF
JUSTICE THAT IS BEING ADMINISTERED THROUGHT THE ILLEGAL COINTELPRO PROGRAM
COUPELD WITH THE TORTURE PROGRAM.
The following is a memo of a meeting with ISC executive Mr. Lawrence Resch and
Mr. PRO SE PETITIONER STAN J. CATERBONE at his office at Financial Management
Group,
Ltd., which took place on June 23, 1987.
"Mr. Lawrence Resch, of San Clamente, California, was a long time associate of Mr. James
Guerin who worked as a marketing consultant, and was an ISC executive prior to the
company going public in 1982. He served as Director of Marketing and head of Lancaster
operations for then defunct United Chem Con, an affiliate of ISC. He was sued by Ferranti
International in 1990 for $189 million dollars and indicted and found guilty by
prosecutors for his role with ISC and served a jail term.
Upon the arrival of Mr. Larry Resch, Stan Caterbone met him in the lobby of Financial
Management Group, Ltd, at which time Larry Resch said "Carl Jacobson could not attend,
we had to suddenly fly him out of the country early this morning (flew to Chile)" The
meeting was started with the subject of the financial difficulties of United Chem Con and
possible alternatives. Larry Resch specifically addressed the possibility of moving the
operations of United Chem Con to another facility, with specific regards to the Renovo
Plant. Larry Resch specifically addressed the financing capabilities of Stan Caterbone,
along with possible management opportunities. Larry Resch also gave financial
statements and documents to Stan Caterbone for the latest fiscal year for United Chem
Con. Stan Caterbone went on to allege that United Chem Con had embezzled some
$15,000,000 from the United States Government for contracts that contained
improprieties. Stan Caterbone also alleged improprieties of International Signal & Control
and James Guerin, with specific regards to its role in the United Chem Con, and its
business activities as related to government contracts. Stan Caterbone noted that he, as a
legal shareholder of International Signal & Control was concerned about improper
business activities.
Larry Resch was taken by surprise by all of the above. Stan Caterbone became quite
upset by the evasiveness and the lack of specifics with regards to Larry Resch's
conversation. In efforts to thwart any further communication from James Guerin, United
Chem Con, or International Signal & Control, Stan Caterbone demanded a retainer fee of
$10,000 before anyone contacted him again."

Case No. 20-5638 Application For RECONSIDERATION

Page No. 11 of 21

Sunday November 29, 2020 1:44pm

by Stan J. Caterbone, Pro Se PETITIONER
Today, the TRUMP ADMINISTRATION is using the old J. Edgar Hoover COINTELPRO
Program while at the same time expanding the powers of local law enforcement through 3
Executive Orders in order to Militarize Local Police Departments. The following are the effects
of the ILLEGAL AND LANDMARK COINTELPRO PROGRAM that is used against me:
As Contained In The Lancaster County Court Of Common Pleas Case No. 08-13373 Where
President Donald Trump Was Added To The Defendant's List On January 23, 2017 And
Other State And Federal Court Cases; The Trump Administration Is Utilizing An Illegal
COINTELPRO Program To Harass The Appellant, Stan J. Caterbone And Obstruct Justice
By Directing Causing It Almost Impossible For The Continuation Of Those Same Civil
Actions.
The Trump Administration Signed (3) Executive Orders That Broadened The Powers Of
The City Of Lancaster Police Department To Coincide With The Above.
The Fact That Complainant Stan J. Caterbone's History With The Lancaster City Police
Department Traces Back To The 1960'S With The Targeting Of Complainant Stan J.
Caterbone's Father, Samuel Caterbone, Jr. In The Very Same Manner As The Current
Targeting Of Complainant Stan J. Caterbone Today Is Reason Enough To Have
Summary Judgments In All Civil Actions In Federal And State Courts Immediately
Ordered.
THE TARGETING CONSISTS OF THE FOLLOWING:
• An Unprecedented Harassment Program Carried Out By Residents, Neighbors, Stalking
Groups, Law Enforcement, And Others.
An Unprecedented Hacking Program Of All Electronic Equipment.
Unprecedented Torture Program Utilizing Electromagnetic And Other Exotic Weapons
Developed By The Department Of Defense And Intelligence Community.
An Unprecedented Campaign Designed To Drain The Appellant Stan J. Caterbone Of All
Cash
Resources, Which Has Resulted In A Cash Position Of Some $60,000.00 In June Of
2015 To Nothing Today.
The Unprecedented Campaign Of False Statements By The Residents Of 1252 Fremont
Stree And The Perjured Statements Of Lancaster City Police In Recent Criminal
Summary Offenses Filed In District Magistrate Adam Witkonis Court.
An Unprecedented Campaign Of Daily Harassment's And Threats By The Residents Of
1252 Fremont Street, Which Has Been Ongoing Since 2006.Un Unprecedented
Campaign Of Threats Of Physical Harm In Public Spaces.
The Unprecedented Campaign Of The Breaking And Entering Into The Residence Of
The Complainant Stan J. Caterbone Causing Vandalism, Thefts, Poisoning Of Food,
And The Strategic Placement Of Cock Roaches On A Daily Basis. This Also Involves
The Theft And Manipulation Of Court Filings And Evidence.
The Above Are All Facilitated And Supported With Violations Of Due Process In The
Complaints To Law Enforcement.
Complainant Stan J. Caterbone, Pro Seam Receiving Retaliatory Adverse And
Harassing Treatment Due To The Fact That 1. , I, Complainant Stan J. Caterbone, Pro
Se, Am The Amicus For Former Pennsylvania Attorney General Kathleen Kane In Case
No. 3575 EDA 2016 In The Eastern District Of Superior Court, Currently In Litigation.

Case No. 20-5638 Application For RECONSIDERATION

Page No. 12 of 21

Sunday November 29,2020 1:44pm

by Stan J. Caterbone, Pro Se PETITIONER

COVERT ACTION
The Limits of Intervention in the Postwar Word
by Gregory F. Treverton,
Investigator for the CHURCH COMMITTEE Copyright 1987
PREFACE
This book originated more than a decade ago when I went to work for the first Senate
Select' Co:rlunittee on Intelligence usually called the Church Committee after its chairman,
Frank Church-formed to investigate intelligence abuses in the after math of Watergate. It was
for me an exhilarating, frustrating introduction to covert action. Since then I have had the
chance to reflect on the issues posed by covert intervention into the politics of foreign nations
while an academic and a government official, in both Congress and the executive, as a Senate in
investigator of covert action and as a White House consumer of intelligence.
It seemed to me then and now that the debate over covert action too often painted it only
in black and white: for some Americans, it was a moral evil given what America stands for,
while others saw it as a moral imperative given the relentless conflict with the Soviet Union.
This book is my attempt to treat a passionate subject with more reflection, to hazard judgments
about four decades of American covert action. I look at the past to seek guidance for the future:
what has changed and what has not in the circumstances that surround decisions to intervene
covertly in foreign nations.
Yet covert action is unpromising terrain for serious analysis, even more so than most of
modern foreign policy. It is, after all, meant to be kept secret at the points of both decision and
action, as closely guarded as any of government secrets. To be sure, covert actions seldom
remain secret; their broad contours and details seep into the public domain.
I draw examples from a number of major American covert actions in the postwar period.
For the earlier cases, particularly . Guatemala in 1954 and Cuba in 1961, many documents have
become available. For Iran in 1953, less documentary evidence is available and many
participants have died; what I have drawn from are memoir accounts. In addition, America's
more recent encounters with Iran have spawned considerable scholarly interest in this earlier
encounter. Still, while the broad outline of the story is clear, details of the processes of
authorization and control within the U.S. government are in short supply, and a number of
anecdotes must be treated as illustrative, and not necessarily factual in all particulars.
In one case, Chile, I am fortunate. When the Church Committee on Intelligence was
formed in 1974, alleged improprieties by intelligence agencies during the Watergate affair were
its first agenda item; Chile was its second. In the early 1970s, a number of newspaper articles
had begun to detail, and sometimes distort, American covert action in Chile, particularly from
1970 to 1973, both before and during the presidency of Salvador Allende, a self-proclaimed
Marxist. The Committee determined, therefore, that it would layout and discuss what the United
States had done in Chile.
We regarded the investigation as a once-in-a-generation clearing of the air. My report,
Covert Action in Chile, 1963-1973, served as the basis for that hearing; it is the complete story,
with the benefit of access to all the relevant CIA and State Department secret cables. This book
is, I hope, enriched by my own government service, but I have been careful not to abuse the
obligations of that service. Accordingly, I sent a draft to the current Senate Intelligence
Committee for review, to make sure I had not inadvertently violated those obligations.

Case No. 20-5638 Application For RECONSIDERATION

Page No. 13 of 21

Sunday November 29,2020 1:44pm

by Stan J. Caterbone, Pro Se PETITIONER
For the more recent cases, a few documents are available ~bout Angola, and the
investigations have provided a wealth of reformation about Nicaragua and Iran. All of these
episodes Ive been controversial, and there has been investigative jour
nalism aplenty. I have checked and supplemented these investigations with interviews, which I
refer to in general terms in the notes.
Nevertheless, I am vulnerable in the lack of some details and to pitfalls of other sorts.
What has been told to the public is bound to be colored by the memories, or the stakes, of those
who do the telling, whether they are former participants or journalists. It may even be that my
assessments are skewed systematically; suppose that the "failures" of covert action are more
likely to be revealed than the "successes?" That is possible but unlikely: if success has a
thousand authors, that is true even of zevert successes, and so a major success would have
found its way into the public view. Even documents must, in a world of teaks and investigations,
be treated with skepticism, for they may have been written more with an eye to history-or self
protection-than to accuracy.
Yet covert action is a serious, sometimes searing, issue. Moreover, as I delved into the history
of covert action, I realized to what extent it mirrored the history of postwar America and its
encounter with the world. And so my conclusions, while still speculative, rest on a broader base
than a dozen cases, for in t<~ose cases are displayed changes in both the United States and the
world, changes that form the backdrop for thinking about covert action in the years ahead. Also
I was struck by how much my general insights into the politics of decision making helped me
understand the Central Intelligence Agency as an organization and the stakes of political
leaders who decided whether or not to embark on covert intervention.
For this book, unlike most scholarly enterprises, I have no pecuniary debts to
acknowledge, but I do have a number of intellectual ones that I happily recognize. I owe an
unusual debt to the CIA officers with whom I worked most closely during the Church Committee
investigations, especially Walter Elder, and
Seymour Bolton, the latter recently deceased. For Bolton, old habits of tradecraft had persisted;
his favorite idea of a meeting was drinks at two in the morning at a Georgetown tavern. While
we argued, I learned, and if I doubted the wisdom of some CIA activities, I never doubted these
officers' commitment to serving their country..
I have received comments on earlier drafts, sometimes more than once, from John Brass,
Leonard Bushkoff, William Colby, Richard Cottam, Robert Coulam, Stephen Flanagan, Derek
Leebaert, Richard E. Neustadt, and Raymond Vernon, as well as from Martin Kessler of Basic
Books. My debt to Loch Johnson, Church Committee colleague and friend, will be clear in
chapter 7 but is present throughout the book. Martin Linsky discussed the book's themes over
and over while we ran, then pored over drafts when stationary. As he has done at other times,
Robert Klitgaard went through my draft in great detail, pressing me to sharpen my prose and to
ask myself why the causal arrows pointed in one direction rather than the other. Julie Pearl and
James Dickinson provided valuable research assistance. To these patient people, and to several
others whom I cannot name, I am extremely grateful.
Finally, one person I happily can name-my wife, Glenis more responsible for this book
than she can know.
Those whose minds are already made up no doubt will criticize the book from both sides,
either as another blow to America's ability to meet the global Soviet challenge or as an apology
for intervention in the politics of foreign nations. Rather than taking solace from these opposite
criticisms as an indication that 1 must be doing something right, I hope the book will help those
who are concerned but whose minds are not closed. In any case, I alone am responsible for the
judgments that follow. It is for the reader to see if they are convincing.

Case No. 20-5638 Application For RECONSIDERATION

Page No. 14 of 21

Sunday November 29, 2020 1:44pm

by Stan J. Caterbone, Pro Se PETITIONER

Chapter 3 - The Political Culture of Covert Action
"Covert action" does not appear in the National Security Act of 1947, which established
the Central Intelligence Agency. Nor do "covert operations," "clandestine warfare," or
"paramilitary operations.” Nor, for that matter, do "espionage" or "clandestine intelligence
collection." Rather: the act authorized the CIA to "perform such other functions and duties
related to intelligence, affecting the national security as the National Security Council may from
time to time direct."! Slender words those, yet they formed the basis for the CIA's covert
involvement in the politics of foreign countries. In the period following World War II, that
involvement has meant literally thousands of operations; between 1951 and 1975, for instance,
there were some nine hundred major or sensitive projects, plus several thousand smaller ones."
This book is about major' league covert actions-ones that were sometimes large in size
and always large in purpose, seeking not just to affect foreign politics at the margin but often to
overturn governments. These major covert actions cannot, however, be understood or assessed
in isolation from the broad The Political Culture of Covert Action sweep of American covert
action in the period since World War It That is so not just because the same organization, the
CIA, carries out both big and small covert actions but also because the small interventionspropaganda, for instance-form both the basis (the "infrastructure," in the language of the
trade) the component pieces of the big.
The history of covert action might be loosely grouped into categories. Propaganda can be
no more than a little money distributed secretly to a few journalists in country X to get them
"write articles favorable to the United States-a "project," in practice, but one that might have a
budget of only a few thousand dollars. At the other extreme are covert paramilitary secret
military aid and training. Most though not all these are large; the "secret" war in Laos, for
instance, was not much secret as unacknowledged, consuming several million dollars a day as a
second front to the war in Vietnam but one managed by the CIA. In between, political action
attempts to change the balance of political forces in a particular country, often by secretly
providing money to particular groups in total numbers, propaganda probably has represented
about of all covert actions in the postwar period, political (and economic) action a third, and
paramilitary operations the though the last have been the most expensive and the most
controversial. Only at the peak of the Vietnam did covert action claim more than half the total
budget for Central Intelligence Agency. If the CIA's role in-Southeast was small by comparison
to that of the military, it was huge comparison to what the CIA had done before. The Agency to
own, secretly and not so secretly, a string of bases and airlines' from Arizona to Thailand.
As the war wound down, so did covert action, a trend abetted by Watergate, the
investigations of intelligence, and the surrounding climate of the mid-1970s. The change was
pronounced during the Carter administration, but it began with Ford. The CIA's "dummy”
companies were sold and many of its clandestine operatives pensioned off. By 1980 covert
action accounted for less than 5 percent of the total CIA budget.
With the Soviet invasion of Afghanistan in 1979, the Carter administration got back in the
business of covert action. When Ronald Reagan acceded to the presidency, the upward move
became a rush; covert actions perhaps tripled in number, to over Forty." The increase in
expenditures was much steeper, largely because of rapidly growing military assistance to
resistance forces in Afghanistan, well over $300 million per year by 19"86. CIA budgets remain
classified, but by the mid-1980s the total came to perhaps $1.5 billion per year, of which covert
action consumed about a third.
Most covert action proposals are initiated by CIA officers in foreign countries, who work
undercover and together comprise the CIA "station." Covert actions are also suggested by
ambassadors, officials in the State or Defense departments, or advisers in the president's inner
circle. For instance, an ambassador may call on the CIA to provide security gear to a friendly
local leader-something the State Department could not do. More dramatically, the idea of selling
arms, in secret, to revolutionary Iran in 1985-86 was very much a White House initiative, run
from the National Security Council.
Case No. 20*5638 Application For RECONSIDERATION

Page No. 15 of 21

Sunday November 29,2020 1:44pm

by Stan J. Caterbone, Pro Se PETITIONER

PROPAGANDA
Propaganda is the bread and butter of covert action. In "normal" times it is done both for
its own sake and to sustain the infrastructure for expansion should need arise. Of the thirty odd
covert actions undertaken by the CIA in Chile between 1961 and 1974, propaganda was the
principal element of a half dozen. It was an important subsidiary part of many others, when
Washington did not see times as "normal." In attempting to influence the 1970 Chilean
elections, the CIA managed to generate at least one editorial a day at El Mercurio, the major
Santiago daily, based on American "guidance.:"
The overthrow of Arbenz in Guatemala in 1954 looks like a paramilitary operation but
was in fact more a propaganda success. The CIA-sponsored rebels' "Voice of Liberation"
broad ;:,ast in short wave from neighboring countries. It even managed, through a fictitious
Mexican entrepreneur, to place announcements of its first broadcast in major Guatemalan
newspapers." created successes for the rebel army where there were no battLes. It appealed to
Arbenz's soldiers to desert and his airmen to It made use of subtle disinformation, suggesting
in one broadcast, for example, that it was not true that a particular lake been poisoned. The
result was a spate of rumors that it have been.
The same was true two decades later, in Angola. The CIA planted articles in the two main
newspapers in Kinshasa, Zaire - Elimo and - Salonga and also in Lusaka, Zambia. The Zambian
papers recorded that UNITA, a CIA-sponsored faction i:l: the war, had captured a particular
city, taking Soviet advisers captive. Only there was neither a victory nor Soviet adversaries
least not at the time of the articles.
In the most "routine" cases, the CIA simply develops "assets" that is, journalists-in
media organizations who will or write articles when so asked. A particular CIA station then
receives guidance from CIA headquarters in Washington about what sort of propaganda is
desired. One covert action in Chile, for example, supported from one to five assets E! Mercurio.
Those assets were asked to write articles or editorials favorable to U.S. interests (for example,
criticizing the Soviet Union in the wake of the invasion of Czechoslovakia); to Surpress news
items harmful to the United States (for instance, the war in Vietnam); or to criticize the Chilean
political left.
Propaganda is all the more attractive because CIA officers count on a "multiplier effect":
any individual item might be picked up and repeated by other media outlets. During the Angolan
war, the CIA copied its propaganda products and sent them to CIA stations in Asia, Europe, and
Latin America, to be passed on to other journalist-assets there. Even better, individual pieces
printed in one paper sometimes were picked up by wire services or other papers without any
CIA involvement. In the process, American papers or wire services might also pick up a piece,
thus inadvertently playing it as real for American audiences as well.
Covert propaganda includes "black" propaganda-that is, material falsely purporting to be
the product of a particular individual or group. Tailoring their products for unusual
circumstances, CIA propagandists in Guatemala, for instance, made use of a technique known
as snuggling. A rebel mimicked the voice of the official announcer on the government station,
and the rebels broadcast on a frequency just adjacent to that government station. Unwary
listeners thought they were listening to the government when in fact they were hearing rebel
propaganda just accurate enough to be credible but fanciful enough o be helpful.
In some cases the form of propaganda is more direct still. In 1975 the CIA station in
Kinshasa provided a mimeograph machine for the FNLA, the other U.S. supported faction in the
Angolan war. It produced leaflets and then dropped them over the Angolan capital, Luanda, the
next morning. Unaccountably, the enemy faction controlling Radio Luanda read the leaflet
verbatim over the air, much to the amusement of CIA officers.
In Santiago, the CIA financed Chilean groups that put up wall posters, passed out political
leaflets-some of which were prepared by the station-and engaged in other street activities.
Most but not all of these direct propaganda activities formed part of larger efforts to influence
Case No. 20-5638 Application For RECONSIDERATION

Page No. 16 of 21

Sunday November 29, 2020 1:44pm

by Stan J. Caterbone, Pro Se PETITIONER
Chilean elections. For instance, in the 1970 campaign CIA-financed sign-painting teams had
instructions to paint the slogan su paredon (your wall) on two thousand walls in Santiago,
evoking an image of Communist firing squads. Other posters exploited the violence of the 1968
Soviet GC"Y3sion of Czechoslovakia, with large pictures of Prague and tanks in downtown
Santiago. Still other posters, resembling used in the 1964 Chilean presidential election,
portrayed political prisoners before firing squads and warned that an Allende victory would
mean the end of religion and family in Chile.
Political Action
CIA covert wars did not begin as paramilitary operations, they began as secret political
operations, then expanded purposes and foreign circumstances changed. The operation in Iran
began as an attempt to use influence, of American support, and small amounts of money to
the wavering shah, in secret, that he was strong to dismiss his prime minister, Mohammed
Mossadeq. when that political operation failed did CIA operatives seriously to organizing street
mobs and armed forces.
Similarly, the CIA's first intervention in the Angolan civil war 1975 was political, not
military: in January 1975 it secretly provided one of the competing Angolan factions, the FNLA,
$300,000, not for arms but for a radio station and newspapers to bolster the FNLA's position in
the political jockeying once became independent. And American covert action in Nicaragua in
the 1980s began, in the waning days of the Carter administration with political action-money
for Nicaraguan opposition groups and media that Washington believed might not survive under
Sandinista rule. Just as any distinction between propaganda and political-action is fairly
arbitrary, so, too, is the line between political and paramilitary operations.
In Chile, U.S. covert action during the years between 1963 1973, primarily political in
character, was broad and deep. In the 1964 Chilean presidential elections, the CIA spent $3
million, or about $1 per Chilean voter. (By contrast, in the 1964 U.S. presidential elections,
candidates Johnson and Goldwater together spent about 50 cents per voter!) CIA covert actions
in Chile over a decade covered the range of what the CIA has done at other times and in other
places.
What did the money buy? In "normal" times, when Chile was not considered a "problem"
by Washington, it bought propaganda favorable to the United States in Chilean media and
modest support for a range of Chilean political parties, labor unions, and student, worker,
women, and peasant groups. When times were not "normaC-when senior officials in
Washington perceived special dangers or opportunities in Chile-the CIA undertook special
projects, ranging from large-scale support for opposition groups, to attempts to influence
elections, to efforts to promote a military coup. In one instance, they even included passing
guns to coup-plotters, an example of how the categories of covert actions can blur!

SUPPORT FOR MEDIA
In addition to buying propaganda retail-that is, supporting individual assets and storiesthe CIA sometimes buys it wholesale. It subsidizes-or establishes-friendly media outlets that
might not exist without American support. This is propaganda writ large, propaganda merging
with political action. From 1953 through 1970 in Chile, for example, the CIA subsidized wire
services, magazines written for intellectual circles, and a rightwing weekly newspaper (support
for which had to be terminated when it was judged to have become so ideological as to turn off
responsible Chilean conservatives).
Again, a Chilean example illustrates how wholesale support for media organizations
sometimes arises. In 1971 the CIA station in Santiago, which had been passing money to
several media assets in A£1 Mercurio, the main opposition paper once the Allende government
was in place, judged that the paper could survive in the face of government pressure.
Government had been withdrawn from the paper, and it could not survive in the face
government pressure. Government advertising had been withdrawn from the paper and it could
not count on it's supply of newsprint, a government monopoly. Under those circumstances the
Case No. 20-5638 Application For RECONSIDERATION

Page No. 17 of 21

Sunday November 29,2020 1:44pm

by Stan J. Caterbone, Pro Se PETITIONER
CIA asked for and received permission from the 40 Committee-the Washington interagency
group charged with approving major covert actions at the time - to pass $700,000 to El
Mercurio in September 1971, and another $965,000 in April 1972. The publisher of the paper
certainly knew whence the money came, and others on the paper have suspected, but they
would not have been informed, Least not by the CIA.

SUPPORT FOR LABOR UNIONS
Labor unions have been important CIA targets since the beginning of postwar covert
action in Western Europe in the late 1940's. Given the success of Communists in organizing
unions the links between union movements and left-wing parties, CIA has sought to assist anti­
communist labor organizations all political shades, ranging from conservative to socialist. In
Chile during the period 1964-68, for example, the CIA sough to combat the Communistdominated Central Unica de Trabajadores Chilenos by assisting rival democratic labor unions
(not very successfully, it turned out, judging from the own postmortems).

SUPPORT FOR POLITICAL PARTIES
Like labor unions, political parties have been a focus of CIA action, for obvious reasons.
The CIA most often has supported parties favorable to the United States during elections, in an
effort to tip the outcome. Sometimes, however, the CIA has provided more general support
when elections were not imminent reckoning that particular parties might not survive without
support or that there was an opportunity to alter the balance of political forces within the
country in question.
In Chile during the Allende years, 1971-73, the CIA believed that opposition parties of the
center and right might not survive either as opposition forces or as contestants in the next
elections. Accordingly, the 40 Committee authorized nearly $4 million, most of which was
passed to the Christian Democratic party (PDC), with a smaller amount going to the National
party (PN), a conservative grouping more stridently opposed to the Allende government than
was the PDC. The CIA also tried to split the ruling Popular Unity coalition by using small
amounts of money as inducements to breakaway elements.
The CIA's efforts in Chile during the 1970s had parallels in the 1960s, though on a smaller
scale. In 1962 the Special Group (predecessor to the 40 Committee) authorized several hundred
thousand dollars to build up the PDC organization in anticipation of the 1964 elections. In 1963
and 1967 the CIA provided smaller amounts to moderate elements within the Radical party
(Chilean parties, like the Italian ones to which they are akin in .many respects, often bear little
political resemblance to their names).

INFLUENCING ELECTIONS
"Election projects" over the years have been as important as any set of covert actions by
the CIA. Early Agency successes, most notably in the 1948 Italian elections, when secret CIA
money helped the Christian Democrats stave off a severe Communist challenge, set the pattern.
In Chile, secret U.S. intervention was a factor in almost every major election in the decade
between 1963 and 1973. In several instances U.S. intervention was massive.
The 1964 presidential election in Chile was the most striking example. The CIA spent
more than $2.6 million in support of the election of the Christian Democratic candidate, Eduardo
Frei, in large part to prevent Salvador Allende's accession to the presidency. More than half the
PDC campaign chest was furnished by the CIA. Eduardo Frei was not formally told of the
support; whether he was aware of it in some sense is another question.

Case No. 20-5638 Application For RECONSIDERATION

Page No. 18 of 21

Sunday November 29,2020 1:44pm

by Stan J. Caterbone, Pro Se PETITIONER

THE CUMULATIVE RESULTS OF THE ABOVE LAYS THE FOUNDATION FOR AN
UNPRECDENTED LANDMARK CASE OF HUMAN RIGHTS VIOLATIONS AND ANTI­
TRUST VIOLATIONS.
It is too easy for present and future administrations to abuse their power and utilize
warrantless surveillance as a means of subverting and obstructing justice for those that are
engaged in Whistle-Blowing cases that concern National Security. Without the proper oversight
and judicial review, a Whistle Blower can be place on terrorist lists for malicious reasons
without the knowledge or just cause. This is in direct conflict with keeping our democracy free
of corruption while adhering to the spirit of the constitution in the manner our founding fathers
envisioned.
Activists, Citizens, and Voters must ensure that constitutional rights of private citizens
are not compromised and justice subverted through information obtained from warrantless
surveillance upon which there is no just cause for any allegations or association with terrorism.
Whistle-Blowers are inherently supportive of a system of checks and balances within our
government that go beyond our constitutional doctrines regarding the same. Whistle-Blowers
ensure that the rule of law is universally applied to all government officials in all branches of
government. The Federal False Claims Act and its provisions protect individuals from abuse of
power, while providing relief and remedies for those that were wronged and those that had the
courage to cite a wrong.
U.S. Sponsored Mind Control Systems are also used to compliment these illegal programs to
silence WHISTLEBLOWERS and others that our government recognizes as a threat to their
illegal strategies and those that are seeking the TRUTH.
Synthetic Telepathy Coupled with
Electromagnetic Weapons used for pain have been the ELECTRONIC WEAPONS OF CHOICE by
the PERPETRATORS committing these haneus crimes against, STAN J. CATERBONE since at least
2005. My father, U.S. Navy 1943 to 1946) was a victim of MK-ULTRA and experienced the same
effects since at least the early 1960's and my brother, Sammy, (U.S. Air Force 1969-19710
received the same victimization through the use of the LSD experiments of the same program.
PRO SE PETITIONER STAN 3. CATERBONE stated and declared that the initial time of connection
with the SYNTHETIC TELEPATHY consisted of months of NON-STOP INTERROGATIONS BY MALE
SUBJECTS WHO IDENTIFIED THEMSELVES AS CIA OPERATIVES. The interrogations lasted hours
upon hours at a time and covered just about every aspect of AMICUS STAN J. CATERBONE'S life.
The "HANDLERS", for lack of a better term, not only focused on the WHISTLEBLOWING
ACTIVITIES OF ISC IN 1987, but also covered mundane everyday experiences, as a form to
harass and torture.
In late spring of 2005, the "HANDLERS" introduce females to the sessions. To this day, the
torture consists of the same, interrogations mixed in with harassment, sex, and humor. It is
the opinion of PRO SE PETITIONER STAN J. CATERBONE, that the only way to keep from
desensitizing and numbing to the harassment and pain is to experience pleasure and laughter
so as to keep the magnitude of the pain at it's highest level.
THIS CAN BE SUBSANTIATED AND VALIDATED BY THE FACT THAT THE SOCIAL SECURITY
ADMINISTRATION UNDER HEALTH AND HUMAN SERVICES GRANTED PRO SE APELLANT DEBTOR
STAN J. CATERBONE E DISABILITY BENEFITS IN AUGUST OF 2009 FOR
SYMPTOMS
AND
ILLNESSES RELATED TO U.S. SPONSORED MIND CONTROL, AND IN FACT STATED IN THE AWARD
LETTER THAT DISABILITY WAS DETERMINED TO BEGIN IN DECEMBER OF 2005; THE DATE A PRO
SE PETITIONER STAN 3. CATERBONE DECLARED THAT THE SYNTHETIC TELEPATHY HAD GONE FULL­
TIME 24/7, WITHOUT INTERUPTION, TO THIS DAY.

Case No. 20-5638 Application For RECONSIDERATION

Page No. 19 of 21

Sunday November 29,2020 1:44pm

by Stan J. Caterbone, Pro Se PETITIONER

CONCLUSION

The petition for a writ of certiorari should be granted.
v

Respectfully submitted,
Stan J. Caterbone, Pro Se Petitioner
Date: Sunday November 29, 2020

Date: Sunday November 29, 2020

Stan JyCaterbone, Pro
Advanced Media Group /
www.amaqlobalentertainmentaroup.com
Linkedin Professional Networking Profile (click here)
Twitter for THE ADVANCED MFDTA GROUP

Case No. 20-5638 Application For RECONSIDERATION

Page No. 20 of 21

Sunday November 29, 2020 1:44pm

Additional material
from this filing is
available in the
Clerk's Office.

